   April 29, 2003




Acquisition


Acquisition of the Suite
of Integrated Radio
Frequency Countermeasures
(D-2003-083)




               Department of Defense
           Office of the Inspector General
Quality               Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

C4I                   Command, Control, Communications, Computers, and Intelligence
DFARS                 Defense Federal Acquisition Regulation Supplement
ORD                   Operational Requirements Document
SIRFC                 Suite of Integrated Radio Frequency Countermeasures
USSOCOM               U.S. Special Operations Command
           Office of the Inspector General of the Department of Defense
Report No. D-2003-083                                                      April 29, 2003
   (Project No. D2002AE-0121)

                      Acquisition of the Suite of Integrated
                      Radio Frequency Countermeasures

                                Executive Summary

Who Should Read This Report and Why? Those who are specifically involved in the
management, support, and oversight of the Suite of Integrated Radio Frequency
Countermeasures (SIRFC) should read this report because it discusses acquisition issues
that must be addressed before the SIRFC program progresses further through the
acquisition process.

Background. Initiated in 1984, the SIRFC is a state-of-the-art, lightweight, fully
integrated radio frequency countermeasures and situational awareness system designed to
protect rotary-wing and fixed-wing aircraft against fire control radars and semi-active
missiles for both air-to-air and surface-to-air weapons systems. At program initiation, the
Army and the U.S. Special Operations Command (USSOCOM) planned to procure
SIRFC units. Through FY 2003, the Army programmed $138.1 million in research,
development, test, and evaluation funds and $32.8 million in procurement funds for the
SIRFC. However in September 2001, the Army withdrew procurement funding for the
SIRFC program for FY 2003 and beyond. Because the Army delayed its SIRFC
procurement plans, USSOCOM programmed $239.7 million in procurement funding for
FY 2003 through FY 2007 to procure, integrate, and install 97 SIRFC systems on special
operations rotary-wing aircraft. The SIRFC is an Army Acquisition Category III
program that is included on the Director, Operational Test and Evaluation oversight list.

Results. Overall, the SIRFC program needs improved management controls in the areas
of program management, key performance parameters, and test and evaluation before it
enters the full-rate production phase of the acquisition process.

       •    Roles and responsibilities for day-to-day management of the SIRFC program
            were unresolved because of Army and USSOCOM indecision concerning
            which organization would manage the program. As a result, neither the Army
            nor USSOCOM had updated the operational requirements document; the
            command, control, communications, computers, and intelligence support plan;
            the test and evaluation master plan; and the program protection plan—key
            documents that are needed to effectively manage the program. Determining
            which organization will manage the continued acquisition of the SIRFC
            system and updating program documentation will help decision makers make
            needed programmatic decisions (finding A).

       •    The Army Aviation Center did not include any key performance parameters in
            the operational requirements document for the SIRFC. As a result, program
            decision makers do not have criteria needed to make informed decisions
            concerning continuation of the program at program reviews and user
           requirements are at greater risk of not being met. Incorporating key
           performance parameters in the SIRFC operational requirements document,
           including a parameter for interoperability, before further decisions are made
           to procure additional SIRFC systems should reduce program risk (finding B).

       •   The Program Executive Officer, Intelligence, Electronic Warfare, and Sensors
           authorized the SIRFC program to enter low-rate initial production even
           though the Army Test and Evaluation Command concluded that the system, as
           designed, was not sufficiently mature to be considered operationally effective,
           suitable, and survivable. As a result, USSOCOM contracted to procure seven
           SIRFC systems at an estimated cost of $19.6 million without assurance that
           they can successfully pass planned operational tests before the full-rate
           production decision review. Delaying further low-rate initial production
           decisions for the SIRFC until adequate test results are available would enable
           decision makers to determine whether the system is affordable and can
           successfully accomplish its intended mission (finding C).

See the Findings section of this report for the detailed recommendations.

Management Comments and Audit Response. We received comments from the Army
Acquisition Executive (the Army) and the USSOCOM Acquisition Executive. Although
the Army nonconcurred with findings A, B, and C, it concurred with the
recommendations to decide which organization will manage the SIRFC system through
the full-rate production phase of the acquisition process and to update the operational
requirements document; the command, control, communications, computers and
intelligence support plan; the test and evaluation master plan; and the program protection
plan.

The USSOCOM Acquisition Executive concurred with the recommendations in the
report with the exception of the recommendation to delay further low-rate initial
production decisions for the SIRFC until test results show that the system is potentially
operationally effective, suitable, and survivable as integrated on the MH-47 Chinook
rotary-wing aircraft. The USSOCOM Acquisition Executive stated that SIRFC system
integration does not affect the SIRFC design. He further stated that the program manager
postponed the low-rate initial production decision for 4 months until recent test results
were reviewed to determine the readiness of SIRFC, as an aircraft subsystem, for low-
rate initial production. However, as concluded in the Army Test and Evaluation
Command Report of June 2001, the operational effectiveness and suitability of the
SIRFC design will not be known until the SIRFC is operationally tested on the MH-47
Chinook. Accordingly, we still believe that the USSOCOM Acquisition Executive, to
reduce program risks, needs to adhere to the exit criteria established in the Army
acquisition decision memorandum, May 30, 2002, requiring successful implementation
of corrective actions, meeting established reliability exit criteria, and having formal test
evaluation results of the SIRFC as integrated on the MH-47 Chinook before approving
additional low-rate initial production decisions. Further, the USSOCOM response did
not satisfy the intent of the recommendation to measure the extent that aircraft
survivability is improved with the system and to assess the affordability of the system
because the independent evaluation that the USSOCOM response referenced did not
measure them. Accordingly, we request that the Acquisition Executive, U.S. Special
Operations Command provide additional comments in response to the final report by
June 30, 2003. (See the Findings section of the report for a discussion of the
management comments and the Management Comments section of the report for the
complete text of the comments.)


                                             ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             2

Findings
     A. Program Management                                             3
     B. Key Performance Parameters                                     8
     C. Readiness for Low-Rate Initial Production                     11

Appendixes
     A. Scope and Methodology                                         19
          Management Control Program Review                           20
          Prior Coverage                                              21
     B. Monitoring Contractor Cost and Schedule Performance on the
          Technology Insertion Contract                               23
     C. Army and U.S. Special Operations Command Program Management   25
     D. Definition of Technical Terms                                 27
     E. Audit Responses to Army on the Report                         30
     F. Report Distribution                                           34

Management Comments
     Department of the Army                                           37
     U.S. Special Operations Command                                  42
Source: U.S. Army Technology Applications Program Office, Fort Eustis, VA

Suite of Integrated Radio Frequency Countermeasures (AN/ALQ-211)
Background
           The Suite of Integrated Radio Frequency Countermeasures (SIRFC), an Army
           acquisition category III program, was initiated in 1984 to meet operational
           requirements for a modular radio frequency electronic countermeasures system
           for Army rotary-wing and fixed-wing aircraft and U.S. Army Special Operations
           Command special operations aircraft. The SIRFC is to provide electronic
           countermeasures against fire control radars and semi-active missiles for both air-
           to-air and surface-to-air weapons systems, radio frequency warning, electronic
           countermeasures protection, and enhanced aircrew situational awareness.
           Appendix D provides definitions of technical terms used in this report.

           In September 2001, the Army withdrew procurement funding for the SIRFC
           program for FY 2003 and beyond. As a result of the Army’s decision to remove
           procurement funding for the system and the events of September 11, 2001, the
           U.S. Special Operations Command (USSOCOM)1 made advanced aircraft
           survivability equipment its number one requirement to meet worldwide
           commitments and reinforced its plans to integrate the SIRFC on the MH-47
           Chinook and the MH-60 Blackhawk rotary-wing aircraft. The DoD Comptroller,
           in Program Decision Memorandum II, December 15, 2001, provided USSOCOM
           with $239.7 million in funding to procure, integrate, and install 97 SIRFC systems
           on special operations aircraft from FY 2003 through FY 2007. The Army
           obligated $128.2 million in research, development, test, and evaluation funds and
           $32.8 million in procurement funds for SIRFC through FY 2002 and programmed
           another $9.9 million for research, development, test, and evaluation in FY 2003.

           In March 2002, the Program Executive Officer, Intelligence, Electronic Warfare,
           and Sensors approved the SIRFC to enter low-rate initial production in support of
           USSOCOM-funded requirements. In the acquisition decision memorandum, the
           Program Executive Officer approved a low-rate initial production quantity of up
           to eight SIRFC systems for aircraft integration, operational testing, and
           subsequent fielding, and to support establishment of an initial production base.
           On March 28, 2002, USSOCOM contracted for seven low-rate initial production
           systems, which are scheduled for delivery beginning in September 2003. The
           Acquisition Program Baseline, March 2002, showed that the Army planned to
           hold the full-rate production decision review in the first quarter of FY 2004. In
           July 2002, the USSOCOM program office revised the date of the planned full-rate
           production decision review to the first quarter of FY 2005.

           In June 2002, the Army removed $51.4 million from the $61.3 million in
           research, development, test, and evaluation funds that were included in the Army
           Research, Development, Test, and Evaluation Budget Item Justification (R-2A
           Exhibit), February 2002, for FY 2003 through FY 2007. The Army will use the
           remaining $9.9 million in research, development, test, and evaluation funds for
1
    USSOCOM, established on April 16, 1987, consists of three Service Component commands: the Army
    Special Operations Command, the Naval Special Warfare Command, and the Air Force Special
    Operations Command. All special operations forces of the Army, Navy, and Air Force are under
    USSOCOM. SIRFC program documentation used the terms USSOCOM and SOCOM [Special
    Operations Command] interchangeably.



                                                   1
           FY 2003 to address technology insertion issues. The draft Army Program
           Objective Memorandum for FY 2004 through FY 2009 also showed zero funding
           for the SIRFC program. Because of a congressional mandate,2 the Office of the
           Director, Operational Test and Evaluation included the SIRFC on its test and
           evaluation oversight list.

           USSOCOM will also use the SIRFC as the aircraft survivability equipment suite
           controller and radio frequency countermeasures system for installation on the
           CV-22 tilt-rotor aircraft.3 The Principal Deputy for the USSOCOM Acquisition
           Executive stated that the CV-22 Program Office purchased four SIRFC systems
           as contractor furnished equipment under a commercial contract between
           Bell/Boeing and International Telephone and Telegraph. The SIRFC program
           office anticipates that the CV-22 Program Office will purchase additional SIRFC
           systems as government furnished equipment through the Army’s SIRFC
           production contract beginning in FY 2004.


Objectives
           The audit objective was to evaluate the overall management of the SIRFC
           program. Because the program was in the engineering and manufacturing
           development acquisition phase, we determined whether management was cost-
           effectively readying the program for the production phase of the acquisition
           process. We also reviewed the adequacy of the management control program as it
           related to our audit objective. See Appendix A for a discussion of the scope and
           methodology, our review of the management control program, and prior coverage.
           Monitoring of the contractor cost and schedule performance is discussed in
           Appendix B.




2
    House of Representatives Report 103-357 (1993) requires the Secretary of Defense to develop a DoD test
    and evaluation process for electronic warfare systems and to report annually on the progress toward
    meeting this process.
3
    As part of our review of the acquisition of the SIRFC, we requested program documentation for the
    CV-22. As of December 2002, the CV-22 Program Office had not provided any documentation for
    review.




                                                      2
           A. Program Management
           Roles and responsibilities for day-to-day management of the SIRFC
           program were unresolved because of Army and USSOCOM indecision
           concerning which organization would manage the program. Neither
           organization updated the operational requirements document; the
           command, control, communications, computers, and intelligence support
           plan; the test and evaluation master plan; and the program protection
           plan—key documents that are needed to effectively manage the program.
           As a result, acquisition decision makers do not have the information they
           need to make informed programmatic decisions.


Acquisition Responsibilities and Program Documentation
  Policy
    DoD has established written policy governing the assignment of program
    management responsibilities and the preparation and update of the operational
    requirements document; command, control, communications, computers, and
    intelligence support plan; the test and evaluation master plan; and the program
    protection plan as follows.

    Program Management Responsibilities. Memorandum of the Secretary of
    Defense on, “The Defense Acquisition System,” October 30, 2002, requires that a
    program manager be designated for each acquisition program. USSOCOM
    Directive 70-1, “Acquisition Management Procedures,” November 24, 1999,
    requires that a memorandum of agreement between the Military Departments and
    USSOCOM be established to delineate responsibilities of USSOCOM and the
    managing Service for each Service-managed acquisition program.

    Operational Requirements Document. Chairman of the Joint Chiefs of Staff
    Instruction 3170.01B requires that the operational requirements document (ORD)
    be updated when necessary and prior to each acquisition milestone to incorporate
    results of the activities during each acquisition phase.
    Command, Control, Communications, Computers, and Intelligence (C4I)
    Support Plans. DoD Interim Defense Acquisition guidebook, October 30, 2002,
    requires that DoD Components develop C4I support plans early in the acquisition
    process for all acquisition programs when they connect in any way to the
    communications and information infrastructure. DoD Instruction 4630.8,
    “Procedures for Interoperability and Supportability of Information Technology
    (IT) and National Security Systems (NSS),” May 2, 2002, also requires that DoD
    Components identify program interoperability requirements in the C4I support
    plan.

    Test and Evaluation Master Plan. The Interim Defense Acquisition
    Guidebook, October 30, 2002, states that the program manager should update the
    test and evaluation master plan at milestones and decision reviews, when the



                                         3
    ORD or C4I support plan is significantly modified, or when the program has
    changed significantly. USSOCOM Directive 70-1 requires that each program
    manager document a test plan in the single acquisition master plan for
    development test and operational test activities. Additionally, the Directive states
    that the program manager should update the single acquisition master plan as the
    program matures and when significant events affecting the program occur.

    Program Protection Plan. DoD Directive 5200.39, “Security, Intelligence, and
    Counterintelligence Support to Acquisition Program Protection,” September 10,
    1997, establishes policy and assigns responsibilities to protect and prevent
    unauthorized or inadvertent disclosure, or loss of critical program information.
    DoD Manual 5200.1-M, “Acquisition Systems Protection Program,” March 16,
    1994, requires program managers to update the program protection plan at each
    milestone review and upon the occurrence of a change in status of the critical
    program information.


Army and USSOCOM Program Management Responsibilities
    Roles and responsibilities for day-to-day management of the SIRFC program
    were unresolved because of Army and USSOCOM indecision concerning which
    organization would manage the SIRFC program after the Army removed funding
    for the program in September 2001.

    Program office personnel stated that the decision concerning program
    management responsibilities would be resolved in September 2002. As of
    December 2002, the Army Acquisition Executive and the USSOCOM
    Acquisition Executive still had not decided which organization will manage the
    SIRFC program through the full-rate production phase of the acquisition process.
    For further details concerning the reason for the Army’s withdrawal from the
    SIRFC program and subsequent USSOCOM actions on the program, see
    Appendix C.


Update of Program Documents
    As a result of the Army’s decision to withdraw from the program in
    September 2001, the ORD, the C4I support plan, the test and evaluation master
    plan, and the program protection plan needed to be updated to show the revised
    requirements and plans to provide the milestone decision authority with the
    information needed to make an informed decision at the SIRFC full-rate
    production review. Because of Army and USSOCOM indecision concerning
    program management responsibilities, the requirements and planning documents
    were not updated as required.

    Operational Requirements Document. Chairman of the Joint Chiefs of Staff
    Instruction 3170.01B, requires that ORDs be updated when necessary and prior to
    each acquisition milestone to incorporate results of the activities during each
    acquisition phase. Because USSOCOM is now the sole user for the SIRFC, the


                                         4
ORD needs to be revised to identify USSOCOM requirements for the SIRFC.
Specifically, USSOCOM needs to identify system capabilities, characteristics,
key performance parameters, and the planned operational use for the SIRFC
system in the ORD. Operational testers need the updated ORD to develop test
plans for the dedicated operational test and evaluation that will be performed to
support the full-rate production decision review in the first quarter of FY 2005.

C4I Support Plan. DoD Instruction 4630.8 requires that program managers
develop a C4I support plan for all acquisition programs to document
interoperability and supportability requirements. The SIRFC program office
believed that a plan was not necessary because the SIRFC system did not
exchange or receive data with systems outside the aircraft. Because the SIRFC
system must interoperate with other systems on the aircraft, the program office
needs a C4I support plan to identify SIRFC information exchange requirements.
Operational testers use the C4I support plan to develop and conduct tests to
demonstrate the satisfaction of system interoperability requirements before the
full-rate production decision. During the audit, the Army Program Office began
preparing a C4I support plan.

Test and Evaluation Master Plan. USSOCOM Directive 70-1 requires that the
program office develop a test plan for developmental test and operational test
activities. The test plan provides a framework to generate detailed test and
evaluation plans for developmental and operational tests needed to support key
decision points.

The test plan that was approved in September 1997 included plans to test the
SIRFC on the Longbow Apache to demonstrate the satisfaction of Army
operational requirements. With the Army’s withdrawal from the SIRFC program,
the test plan needs to be updated to plan and conduct operational tests on the
MH-47 Chinook and the MH-60 Blackhawk rotary-wing aircraft to demonstrate
the satisfaction of USSOCOM operational requirements for the SIRFC before the
full-rate production decision review in the first quarter of FY 2005. The deputy
product manager stated that the test and evaluation master plan was under
revision. She anticipated that the revised test and evaluation master plan would
be approved in the Spring of 2003.
Program Protection Plan. DoD Directive 5200.39 requires program managers
to identify critical elements of their programs and develop a program protection
plan. DoD 5200.1-M requires the program manager to update the program
protection plan at each milestone review, when a change occurs in the status of
the critical program information, and before each acquisition phase. The Science
Applications International Corporation prepared the SIRFC program protection
plan that was dated March 10, 1994. In preparing the program protection plan,
the Science Applications International Corporation did not have information on
the selection and application of security measures and countermeasures that are
necessary to protect critical information for the SIRFC throughout its acquisition
life. The information was not available because the program office did not
provide the Army Intelligence Agency with the information needed to prepare a
Multi-Discipline Counter Intelligence Threat Assessment to be included in the
1994 program protection plan. Subsequently, in August 2001, the deputy



                                     5
    product manager stated that the required information was provided to the Army
    Intelligence Agency; however, as of December 2002, the Army Intelligence
    Agency had not initiated an assessment.

    In addition, when the Science Applications International Corporation developed
    the program protection plan, it addressed the advanced threat radar jammer
    component, but not the threat warning system component of the SIRFC. Without
    a complete and updated program protection plan, the program office may
    unknowingly release critical program information and technologies. To help
    prevent unauthorized disclosure or inadvertent transfer of leading-edge
    technologies and sensitive data or systems, the program protection plan should be
    kept up-to-date to safeguard critical program and technology information.


Conclusion
    The Army and USSOCOM need to decide future program management
    responsibilities for the SIRFC program and to update program documentation to
    show the effects of the Army’s withdrawal on program planning and
    management. Without updated documents, acquisition decision makers do not
    have the information they need to make informed programmatic decisions.


Army Comments on the Finding and Audit Response
    A summary of Army comments on the finding and audit responses is in
    Appendix E.


Recommendations and Management Comments
    A.1. We recommend that the Army Acquisition Executive and the U.S.
    Special Operations Command Acquisition Executive decide which
    organization will manage the Suite of Integrated Radio Frequency
    Countermeasures system through the full-rate production phase of the
    acquisition process.

    Army Comments. The Program Executive Officer, Intelligence, Electronic
    Warfare, and Sensors, responding for the Army Acquisition Executive, concurred,
    stating that operational control of the SIRFC program was transferred to the U.S.
    Special Operations Command effective January 6, 2003, and that a formal
    transition plan was being jointly staffed for approval with the Army and U.S.
    Special Operations Command Acquisition Executives.

    U.S. Special Operations Command Comments. The Acquisition Executive,
    U.S. Special Operations Command concurred, stating that operational control of




                                        6
the SIRFC program was transferred to USSOCOM effective January 6, 2003. He
stated that transition of the SIRFC program from the Army product management
office to USSOCOM would be completed by September 30, 2003.

A.2. We recommend that the office assigned responsibility for the future
management of the Suite of Integrated Radio Frequency Countermeasures
program update the operational requirements document; the command,
control, communications, computers and intelligence support plan; the test
and evaluation master plan; and the program protection plan to show
required program changes caused by the Army’s withdrawal from the Suite
of Integrated Radio Frequency Countermeasures program.

Army Comments. The Program Executive Officer, responding for the Army
Acquisition Executive, concurred, stating that the Army product management
office and the USSOCOM Technology Applications Program Office jointly
prepared a single acquisition management plan (the Plan) in March 2002, to
support the FY 2002 low-rate initial production decision. The Plan identified
program changes caused by the Army’s withdrawal of procurement funds from
the program and addressed cost, schedule, performance, test and evaluation,
program affordability, and risk assessments for special operations aircraft
applications based on USSOCOM production funds. He further stated that
USSOCOM would handle subsequent updates of the documents.

U.S. Special Operations Command Comments. The Acquisition Executive,
U.S. Special Operations Command concurred, stating that the operational
requirements document; the command, control, communications, computers and
intelligence support plan; the test and evaluation master plan; and the program
protection plan were being updated to reflect just USSOCOM requirements and
would be signed in the Spring of 2003.




                                    7
            B. Key Performance Parameters
            The Army Aviation Center did not include any key performance
            parameters for the SIRFC in the ORD. This condition occurred because
            the Army Aviation Center was not aware of the requirement that key
            performance parameters for acquisition category III programs be placed in
            ORDs. As a result, program decision makers do not have criteria needed
            to make informed decisions concerning continuation of the program at
            program reviews and user requirements are at greater risk of not being
            met.


Operational Requirements and Interoperability Policy
     Operational Requirements Policy. Memorandum of the Secretary of Defense
     on, “The Defense Acquisition System,” October 30, 2002, and Chairman of the
     Joint Chiefs of Staff Instruction 3170.01B provide DoD policy for identifying key
     performance parameters in operational requirements documents.

             Secretary of Defense Policy Memorandum. The memorandum states
     that before a program enters the system development and demonstration phase of
     the acquisition process, key performance parameters must be identified and
     validated to guide the efforts of that phase. Additionally, the memorandum states
     that key performance parameters should be refined as needed.

             Joint Staff Policy. Chairman of the Joint Chiefs of Staff
     Instruction 3170.01B requires that DoD Components include key performance
     parameters that are mission-critical system requirements in the ORD. Key
     performance parameters represent those capabilities and characteristics of the
     system so significant that failure to meet the threshold value of performance can
     be cause for the program to be reevaluated or the program to be reassessed or
     terminated.

     Interoperability Policy. Chairman of the Joint Chiefs of Staff
     Instruction 3170.01B; Chairman of the Joint Chiefs of Staff Instruction 6212.01B,
     “Interoperability and Supportability of National Security Systems and
     Information Technology Systems,” May 8, 2000; and Memorandum of the Joint
     Requirements Oversight Council on, “Policy for Updating Operational
     Requirements Documents to Incorporate Interoperability Key Performance
     Parameter and Cost,” November 16, 1999, provide DoD policy on identifying a
     key performance parameter for interoperability in ORDs.

             Joint Staff Policy. Chairman of the Joint Chiefs of Staff
     Instruction 3170.01B requires that the lead DoD Component include a key
     performance parameter for interoperability in ORDs to allow for cross-system
     operation. The interoperability key performance parameter is derived from the
     information exchange requirements that characterize the information exchanges
     performed by the proposed system. The interoperability key performance
     parameters in an ORD define the level of interoperability for the proposed system.



                                          8
     Chairman of the Joint Chiefs of Staff Instruction 6212.01B states that the ORD
     must be certified before each milestone, regardless of acquisition category, for
     conformance with joint national security systems and interoperability standards.

            Joint Requirements Oversight Council Policy Memorandum. The
     memorandum requires that DoD Components include an interoperability key
     performance parameter in the ORD of all systems that entered the engineering
     and manufacturing development phase of the acquisition process before April 1,
     2000.


Operational Requirements Document
     The Army Aviation Center prepared the initial ORD for the SIRFC on March 2,
     1994, based on the 1984 Aircraft Survivability Equipment Required Operational
     Capability document. Subsequently, the Army Aviation Center revised the ORD
     in May 1995, August 1998, and June 1999. Key performance parameters were
     omitted from those versions of the ORD.

     The Army Aviation Center did not include key performance parameters in the
     ORD because it was not aware of the requirement that key performance
     parameters for acquisition category III programs be placed in ORDs. Program
     office personnel stated that the Army planned to add a key performance parameter
     for interoperability in an update to the ORD. As of November 2002, the ORD
     was still being updated. When interoperability is identified as a key performance
     parameter in the ORD, the Director for Command, Control, Communications, and
     Computers (J-6) validates that the interoperability key performance parameter
     was adequately tested and that the test results were certified. The Joint
     Interoperability Test Command certifies system test results during the
     interoperability system test certification. Testing may be performed with other
     developmental or operational testing whenever possible to conserve resources.
     However, interoperability testing and test certification must be addressed as an
     integral part of the requirements generation process before the planned full-rate
     production decision review in the first quarter of FY 2005.


Effect of Not Including Key Performance Parameters in the
  Operational Requirements Document
     Without key performance parameters that specify which SIRFC system
     requirements are considered essential for successful mission accomplishment,
     acquisition decision makers do not have the criteria needed to make informed
     decisions concerning continuation of the program at program reviews.
     Accordingly, USSOCOM needs to update the ORD for the SIRFC to specify key
     performance parameters for those system capabilities or characteristics that are
     considered essential to reach the overall desired capabilities of the system for
     special operations rotary-wing aircraft.




                                         9
Army Comments on the Finding and Audit Response
    A summary of Army comments on the finding and audit responses is in
    Appendix E.


Recommendation and Management Comments
    B. We recommend that the Commander, U.S. Special Operations Command
    update the operational requirements document for the Suite of Integrated
    Radio Frequency Countermeasures to include key performance parameters
    for critical user requirements and system interoperability requirements
    before further production decisions.
    U.S. Special Operations Command Comments. The Acquisition Executive,
    U.S. Special Operations Command concurred, stating that the operational
    requirements document would be updated to include key performance parameters
    for critical user requirements and system interoperability requirements before the
    next production decision.




                                        10
            C. Readiness for Low-Rate Initial
               Production
            The Program Executive Officer, Intelligence, Electronic Warfare, and
            Sensors authorized the SIRFC program to enter low-rate initial production
            even though the Army Test and Evaluation Command concluded that the
            system, as designed, was not sufficiently mature to be considered
            operationally effective, suitable, and survivable. The Program Executive
            Officer made the decision to enable USSOCOM to meet its SIRFC
            requirement for an initial operational capability in FY 2005 for the MH-47
            Chinook special operations rotary-wing aircraft. As a result, USSOCOM
            has contracted to procure seven SIRFC systems at an estimated cost of
            $19.6 million without assurance that the SIRFC units procured can
            successfully pass planned operational tests before the full-rate production
            decision review.


Low-Rate Initial Production Decision Policy
     Memorandum of the Secretary of Defense on, “The Defense Acquisition System,”
     October 30, 2002, provides testing policies pertaining to low-rate and full-rate
     production for all DoD acquisition programs. DoD Manual 4245.7-M,
     “Transition from Development to Production,” Change 1, February 13, 1989,
     provides guidance to acquisition managers on minimizing risks associated with
     transitioning from development to production. The transition process involves
     two decision points: approval to enter low-rate initial production and approval to
     enter full-rate production. The low-rate initial production decision is critical
     because it starts the contractor production line.

     Secretary of Defense Policy Memorandum. The memorandum states that
     system entrance into the production and deployment phase depends on the
     following criteria: acceptable performance in development, test and evaluation,
     and operational assessment; mature software capability; no significant
     manufacturing risks; a manufacturing process in control; an approved ORD;
     acceptable interoperability; acceptable operational supportability; and
     demonstration that the system is affordable, optimally funded, and properly
     phased for rapid acquisition throughout the life cycle.

     DoD Manual 4245.7-M. DoD Manual 4245.7-M provides acquisition managers
     with an overlay of risk-reducing activities in design, testing, and production for
     the sequential acquisition program milestones. The manual states that program
     failure in one of the design, test, and production processes often results in a
     failure to do well in all areas. As a result, programs become high risk and
     equipment is deployed later and at a far greater cost.




                                         11
Platform Used For Limited User Test
     The test and evaluation master plan for the SIRFC, September 16, 1997, stated
     that the Longbow Apache would be used as the test platform during the
     engineering and manufacturing development phase to demonstrate SIRFC
     capabilities. From September through October 2001, the Operational Test
     Command, a subordinate organization of the Army Test and Evaluation
     Command, conducted the SIRFC limited user test with the Longbow Apache to
     support the low-rate initial production decision.

     In September 2001, the Army withdrew program funding for the SIRFC. As a
     result, USSOCOM obtained funding in December 2001 to continue with
     procuring 97 SIRFC systems for special operations aircraft. Because USSOCOM
     special operations aircraft did not include the Longbow Apache, the Army, as
     program manager, decided to equip the MH-47 Chinook rotary-wing aircraft with
     the SIRFC system first.

     Technology Applications Program Office officials stated that it was too late to
     change the test platform and believed that if the SIRFC system worked on the
     Longbow Apache, it could be integrated into other platforms. The Army Test and
     Evaluation Command’s system assessment stated that because the difference
     between platforms and their respective SIRFC integrations reduced the relevance
     of Longbow Apache-based test results for other aircraft, they recommended that
     the additional platforms needed to be tested.


Results of Operational Tests
     The Program Executive Officer, Intelligence, Electronic Warfare, and Sensors
     authorized SIRFC to enter low-rate initial production even though the Army Test
     and Evaluation Command (the Command) and the Director, Operational Test and
     Evaluation concluded that the system was not sufficiently mature to be considered
     operationally effective, suitable, and survivable.

     Army Test and Evaluation Command. The Command, in its system
     assessment for the SIRFC dated June 21, 2002, stated that the SIRFC system was
     not sufficiently mature at that time to be considered operationally effective,
     suitable, and survivable. Further, the Command recommended that the program
     office make 15 system improvements before allowing the SIRFC system to enter
     into low-rate initial production and 11 modifications to the test and evaluation
     strategy before testing the SIRFC system again. The Command assessed SIRFC
     effectiveness, suitability, and survivability based on:

         •   the “Critical Operational Issues and Criteria,” August 22, 1997;

         •   the Operational Requirements Document for the SIRFC, Change 1,
             April 18, 1996;




                                         12
                •    the mission needs and minimum operational performance requirement in
                     the Operational Requirements Document for the Longbow Apache,
                     April 1, 1994; and

                •    the evaluation issues and associated measures of effectiveness and
                     performance data obtained during developmental and operational testing.

           The test results obtained for SIRFC effectiveness, suitability, and survivability
           during developmental and operational testing follow.

                   Effectiveness Issues. The Command stated that the SIRFC system
           demonstrated potential effectiveness, which it defined as the ability of SIRFC to
           provide threat warning and countermeasures in response to the radio frequency
           threat. Specifically, the SIRFC system was effective at identifying two of seven
           tested threats; however, the Command stated that further system improvement in
           identifying additional threats depended on the resolution of technical risks.
           Further, the Command stated that neither SIRFC nor any other radar warning
           system4 may be able to provide threat identification to the accuracy standards
           specified in the ORD. Among the deficiencies that the Command noted were
           frequent false warnings of threat radars, overlapping threat symbols, and
           inadequate warnings of threat search radars.

           Another effectiveness concern was the jamming countermeasures capability of the
           SIRFC, which must be able to degrade the threat’s ability to engage aircraft and
           reduce the effectiveness of guns or missiles fired at the aircraft. Although the
           SIRFC limited user test indicated improved survivability of the Longbow Apache
           against some radio frequency threat systems, the jammer effectiveness varied with
           threat type and aircraft range. Also, the test results showed that the jammer
           created the potential for interference between Army rotary-wing aircraft when
           multiple SIRFC-equipped platforms were deployed in the same area. The
           necessary separation of SIRFC-equiped platforms imposed significant operational
           restrictions affecting Army attack helicopter doctrine. The ORD and the draft test
           and evaluation master plan, November 28, 2001, specify that SIRFC will be used
           in attack helicopter missions. However, the USSOCOM program office stated
           that the Army attack helicopter doctrine did not apply to USSOCOM rotary-wing
           aircraft operations. Accordingly, USSOCOM needs to reassess and revise, if
           appropriate, the ORD requirement that SIRFC equipped platforms will operate in
           attack helicopter missions.

           Output power was also an effectiveness issue. The Command noted that the
           existing output power of the SIRFC jammer did not meet the jamming
           requirements of special operations aircraft because those aircraft have larger radar
           cross sections than the Longbow Apache. To overcome this issue, the
           USSOCOM program office stated that it planned to use either two jammers or a
           jammer with twice the power output of the jammer used on the Longbow Apache
           on special operations aircraft to mitigate the output power deficiency of the
           SIRFC jammer.

4
    Radar warning systems enhance aircrew knowledge of the threat environment and facilitate evasive
    maneuvers to avoid the threat, thereby reducing the occurrence of engagements.



                                                     13
                     Suitability Issues. The Command evaluated SIRFC suitability in terms of
            software reload capability; integrated logistics support; interoperability;
            compatibility; reliability; availability; and maintainability and concluded that the
            SIRFC system, as integrated on the Longbow Apache, was not suitable. The
            Command stated that the number of issues identified in the areas of reliability,
            built-in test, maintainability, maturity and stability of design, and manpower and
            personnel integration was more significant than the magnitude of any single issue.
            During the limited user test, for example, the demonstrated reliability of the
            system was 5 hours, with a lower confidence limit of 3 hours. The demonstrated
            reliability of 5 hours is significantly lower than the ORD requirement for
            300 hours mean-time between mission affecting failures. The results of the
            contractor’s reliability growth test5 showed that the SIRFC system could meet the
            ORD reliability threshold of 300 hours. However, the Command stated that the
            data from the limited user test and the reliability growth test could not be
            combined, nor did the data instill high confidence that the SIRFC could meet its
            mission reliability requirements. Further, the Command stated that the number of
            design changes and the poor reliability test results suggested that changes were
            needed in the maintenance concept.

                    Survivability Issues. Survivability requirements include the ability of the
            SIRFC to withstand and to operate in electromagnetic, nuclear, biological, and
            chemical environments and not to be susceptible to information attacks. The
            Command stated that the SIRFC was not survivable in any of those environments.
            For example, the Command stated that the SIRFC system was not
            electromagnetically compatible with other subsystems of the Longbow Apache
            and did not comply with electromagnetic environmental effects tests of
            subsystems in accordance with Military Standard 461D, “Requirements for the
            Control of Electromagnetic Interference Emissions and Susceptibility,”
            January 11, 1993. As a result, the Command stated that the SIRFC was at risk for
            electromagnetic interference and electromagnetic compatibility problems when
            integrated on platforms and deployed in an operational environment. In this
            regard, the USSOCOM Program Office stated that it believed that the
            electromagnetic interference and compatibility problems experienced on the
            Longbow Apache were not USSOCOM issues because those subsystems
            interfered with on the Longbow Apache were not installed on special operations
            aircraft. Until the SIRFC system is tested on USSOCOM rotary-wing aircraft,
            knowledge concerning whether subsystems on USSOCOM rotary-wing aircraft
            will experience similar electromagnetic interference and compatibility problems
            with the SIRFC will not be known.

            Director, Operational Test and Evaluation. The Director, Operational Test and
            Evaluation tasked the Institute for Defense Analysis to assess the operational
            effectiveness, suitability, and survivability of the SIRFC system. On August 21,
            2002, the Institute for Defense Analysis released its draft assessment to the
            Director, Operational Test and Evaluation. Overall, the Institute for Defense
            Analysis concurred with the system assessment that the Army Test and
            Evaluation Command issued in June 2002.
5
    Reliability growth testing is an iterative process intended to rapidly and steadily improve reliability using
    a systematic engineering process of test-analyze-fix-retest, where equipment is tested under actual,
    simulated, or accelerated environments.



                                                         14
System Improvements Identified at Low-Rate Initial
  Production Program Review
     The SIRFC contractor advised the program office of at least 10 known SIRFC
     deficiencies that it wanted to fix before conducting the limited user test. Because
     the SIRFC program manager needed approval to enter low-rate initial production
     in March 2002 to meet the planned initial operational capability date for the
     European Command scheduled for FY 2005, he decided to go forward with the
     limited user test before the contractor corrected the identified SIRFC deficiencies.
     After the limited user test, in March 2002, the program office awarded the SIRFC
     contractor a corrective actions contract to correct 37 deficiencies. Of those
     37 deficiencies, 35 deficiencies involved SIRFC software deficiencies with the
     electronic countermeasures, the complex radio frequency, and the sensor fusion
     processor. The remaining two deficiencies related to the wideband receiver and
     smearing noise. The contractor and Army program office were of the opinion that
     successful correction of the 37 deficiencies would solve most of the SIRFC
     performance deficiencies noted in the Army Test and Evaluation Command’s
     system assessment.


Statement of Urgency for the SIRFC
     In a memorandum dated October 22, 2001, the Program Executive Officer,
     Aviation requested that the SIRFC procurement be accelerated in support of
     Operation Enduring Freedom. The Program Executive Officer stated that it was
     imperative for SIRFC to be procured expeditiously to equip special operations
     aircraft. He stated that failure to immediately purchase SIRFC systems would
     result in degraded aircraft readiness and a high probability of increased flight
     crew casualties.


Low-Rate Initial Production Decision
     In February 2002, the Program Executive Officer, Intelligence, Electronic
     Warfare, and Sensors conducted a meeting with Army program office
     representatives, USSOCOM, and the Army Test and Evaluation Command to
     discuss a limited procurement decision in response to the statement of urgency.
     Although the final test results were not favorable, USSOCOM stated its
     willingness to accept the system with its known deficiencies because the
     demonstrated SIRFC capabilities were better than existing radio frequency
     electronic countermeasures on special operations aircraft.

     In March 2002, the Program Executive Officer approved the procurement of up to
     eight SIRFC systems under low-rate initial production because he believed that
     the Army had a reasonable corrective actions plan that included risk management
     and risk mitigation. Additionally, he stated that no additional SIRFC systems




                                         15
    would be procured under low-rate initial production until it was fully and
    successfully integrated with USSOCOM aircraft and the reliability problems were
    resolved.


Conclusion
    Test results available to the Army and USSOCOM program offices did not
    provide evidence that SIRFC system capabilities were better than those of
    existing systems on special operations aircraft or that low-rate initial production
    was justified in March 2002. No pre-set threshold that defined existing
    capabilities of special operations aircraft was established in the ORD or the test
    and evaluation master plan. Also, there was no side-by-side testing of the SIRFC
    with those existing systems on the aircraft to compare against. Therefore, the
    opinion that SIRFC was better than the existing capabilities on special operations
    aircraft was not supported by available test results before the low-rate production
    decision in March 2002.


Army Comments on the Finding and Audit Response
    A summary of Army comments on the finding and audit responses is in
    Appendix E.


Recommendations, Management Comments, and Audit
  Response
    C.1 We recommend that the Army Acquisition Executive and the U.S.
    Special Operations Command Acquisition Executive not approve further
    low-rate initial production decisions for the Suite of Integrated Radio
    Frequency Countermeasures system until test results show that the system is
    potentially operationally effective, suitable, and survivable as integrated on
    the MH-47 Chinook rotary-wing aircraft.

    Army Comments. The Program Executive Officer, Intelligence, Electronic
    Warfare and Sensors neither concurred nor nonconcurred; however, he stated that
    because the U.S. Special Operations Command Acquisition Executive was now
    the milestone decision authority for the SIRFC program, the Army did not have a
    formal position for this recommendation.

    U.S. Special Operations Command Comments. The Acquisition Executive,
    U.S. Special Operations Command nonconcurred, stating that the SIRFC system,
    as an aircraft subsystem, was designed to perform across multiple platforms and
    that the integration of the system on the MH-47 Chinook had no impact on the
    system design. However, the Acquisition Executive stated that the program
    manager had postponed the low-rate initial procurement decision for 4 months.
    During that 4-month period, the program manager will review system test results


                                        16
to determine the readiness of the system, as an aircraft subsystem, for low-rate
initial production.

Audit Response. The comments of the Acquisition Executive, U.S. Special
Operations Command were unresponsive to the intent of the recommendation. In
March 2002, the Program Executive Officer, Intelligence, Electronic Warfare and
Sensors approved a low-rate initial production decision of up to eight SIRFC
systems. The approval was granted with the caveat that additional low-rate initial
production units would be withheld pending a decision review that would
demonstrate, among other issues:

   •   evidence of reliability fixes that demonstrate an achievable growth path
       towards meeting the reliability exit criteria;

   •   appropriate rationale to support additional low-rate initial production
       quantities; and

   •   formal test and evaluation results that can support a decision regarding
       additional low-rate initial production quantities.

The Army Test and Evaluation Command, in its system assessment of June 21,
2002, stated that the SIRFC system was not sufficiently mature to be considered
operationally effective, suitable, and survivable and that the differences between
platforms and their respective SIRFC integrations reduced the relevance of the
test results that were based on the Army Longbow Apache for other aircraft, such
as the USSOCOM MH-47 Chinook rotary-wing aircraft. The Command
recommended that those additional platforms be tested with the SIRFC before
making production decisions. Because the SIRFC has yet to be operationally
tested on the MH-47 Chinook, the aircraft that the SIRFC will be fielded on, we
believe that to reduce program risks, the USSOCOM Acquisition Executive needs
to adhere to the exit criteria established in the Army acquisition decision
memorandum for the SIRFC, May 5, 2002, before approving additional low-rate
initial production quantities. Accordingly, we request the Acquisition Executive,
U.S. Special Operations Command reconsider his position on this
recommendation and provide additional comments on the final report.
C.2. We recommend that the Commander, U.S. Special Operations
Command compare the performance achieved with the Suite of Integrated
Radio Frequency Countermeasures to the performance of existing aircraft
radio frequency and jamming systems, measure the extent that aircraft
survivability is improved within the system, and assess the affordability of
the system.

U.S. Special Operations Command Comments. The Acquisition Executive,
U.S. Special Operations Command concurred, stating that on January 8, 2003, the
Intelligence and Information Warfare Directorate, Army Communications
Electronics Command provided an independent evaluation of the performance of
existing radio frequency systems compared to the Suite of Integrated Radio
Frequency Countermeasures system.




                                    17
Audit Response. The comments of the Acquisition Executive, U.S. Special
Operations Command did not satisfy the intent of the recommendation. On
January 8, 2003, the Intelligence and Information Warfare Directorate (the
Directorate), Army Communications Electronics Command presented an
independent evaluation of the performance of existing radio frequency systems
compared to the SIRFC system. However, the Directorate did not compare
SIRFC performance as demonstrated through operational test results with the
actual performance of existing radio frequency systems. Instead, the Directorate
compared the performance specifications of existing radio frequency systems to
the performance specifications of the SIRFC. Accordingly, the comparison did
not measure the extent that aircraft survivability was improved with the SIRFC or
assess the affordability of the system compared to using existing aircraft radio
frequency and jamming systems. Therefore, we request that the Acquisition
Executive, U.S. Special Operations Command provide additional comments based
on a comparison of actual SIRFC test data to measure the extent that aircraft
survivability is improved using the SIRFC system and to assess the affordability
of the SIRFC system.




                                   18
Appendix A. Scope and Methodology
   We reviewed documentation dated from August 1989 to August 2002. We used
   criteria and references cited in the Memorandum of the Secretary of Defense on,
   “The Defense Acquisition System;” Interim Defense Acquisition Guidebook;
   DoD Instruction 4630.8, DoD Instruction 5010.40; DoD Directive 5010.38,
   “Management Control (MC) Program;” DoD Directive 5200.39; DoD
   Manual 4245.7-M; DoD Manual 5200.1-M; Chairman of the Joint Chiefs of Staff
   Instructions 3170.01B and 6212.01B; Memorandum of the Joint Requirements
   Oversight Council on, “Policy for Updating Operational Requirements
   Documents to Incorporate Interoperability Key Performance Parameter and
   Cost;” Military Standard 461D; Defense Federal Acquisition Regulation
   Supplement 252.242-7005, “Cost/Schedule Status Report;” and USSOCOM
   Directive 70-1 to perform the audit.

   To accomplish the audit objective, we took the following steps.

      •   We reviewed the “SIRFC Operational Requirements Document,” March 2,
          1994, and its revisions, dated May 1995, August 1998, and June 1999 to
          determine whether the user adequately defined system requirements, key
          performance parameters, and interoperability requirements. We also
          discussed planned ORD revisions and USSOCOM requirements with
          personnel in the Technology Applications Program Office.

      •   We reviewed the “Single Acquisition Management Plan,” March 2002;
          the “SIRFC Test and Evaluation Master Plan,” September 16, 1997; and
          the “Program Protection Plan,” March 10, 1994, to determine whether the
          program office developed and effectively implemented program
          documentation, such as the acquisition strategy, acquisition plan, test and
          evaluation master plan, and program protection plan. We discussed the
          contents of those documents with program office personnel. We also
          questioned program office personnel regarding the preparation of a C4I
          Support Plan.
      •   We reviewed the results of the “Army Test and Evaluation Command
          System Assessment for the Suite of Integrated Radio Frequency
          Countermeasures,” June 21, 2002, and the Institute for Defense Analysis
          “Independent Evaluation of the Suite of Integrated Radio Frequency
          Countermeasures,” DRAFT, August 21, 2002, to determine the results of
          the limited user test and whether the Command considered the SIRFC
          design mature enough to support a low-rate initial production decision.
          We discussed the test results in the Army’s report with personnel from
          offices of the Director, Operational Test and Evaluation; the Army Test
          and Evaluation Command; the Technology Applications Program Office;
          the Communications and Electronics Command; and with contractor
          personnel from International Telephone and Telegraph. We also
          discussed the results from the Institute for Defense Analysis DRAFT
          report with personnel from the Office of the Director, Operational Test
          and Evaluation.



                                       19
       •   We reviewed the following Army contracts: DAAB07-94-C-M504,
           awarded July 26, 1994, for SIRFC engineering and manufacturing
           development; DAAB07-00-C-B410, awarded July 17, 2000, for SIRFC
           technology insertion; DAAB07-01-D-B010, awarded April 26, 2001, for
           production, corrective actions, and special operations aircraft; and
           USSOCOM contract USZA95-02-C-0009, March 28, 2002, for SIRFC
           integration, interface control drawings, manufacturing improvements, and
           hardware. Additionally we reviewed price negotiation memorandums for
           those contracts. We also reviewed the cost and schedule status reports on
           contract DAAB07-94-C-M504 from January 26, 2002, through June 26,
           2002, to evaluate the adequacy of contract cost and schedule monitoring.
           Further, we reviewed the memorandums of agreement between the
           Defense Contract Management Agency and the Army program office
           dated June 18, 1997; May 23, 2001; and August 1, 2002.

       •   We discussed with the Defense Contract Management Agency its
           involvement with the SIRFC program office and its monitoring of
           contractor cost and schedule status reports.

       •   We reviewed management controls related to the audit objective and
           management self-evaluations for information technology and purchase
           card assessable units.

    We performed the audit from April 2002 through December 2002 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. An electrical engineer from the Technical
    Assessment Division, Office of the Assistant Inspector General for Auditing,
    DoD, assisted in reviewing the technical requirements in the ORD, the test and
    evaluation master plan, and the system assessment report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapon System Acquisition high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD policy, acquisition managers are to use program cost, schedule, and
    performance parameters as control objectives to implement the requirements of


                                       20
    DoD Directive 5010.40. Accordingly, we limited our review to management
    controls directly related to SIRFC program cost, schedule, and performance. We
    reviewed management’s completed self-evaluations for information technology
    and purchase card assessable units. Management did not complete a self-
    assessment for the acquisition management assessable unit.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DoD Instruction 5010.40. Management controls
    were not adequate to ensure that the program manager and user updated program
    documentation as required. Recommendations A.2. and B., if implemented, will
    ensure adherence to regulatory requirements. We will provide a copy of the
    report to the senior official responsible for management controls in the Offices of
    the Assistant Secretary of the Army (Financial Management and Comptroller) and
    the Comptroller, USSOCOM.

    Adequacy of Management Self-Evaluation. Although the SIRFC program
    office performed self-evaluations, it did not conduct a self-evaluation for the
    acquisition management assessable unit. Accordingly, the program office did not
    identify the material management control weaknesses that the audit identified.


Management Comments on Management Control Program
 Review and Audit Response
    Program Executive Office, Intelligence, Electronic Warfare, and Sensors
    Comments. The Program Executive Officer provided comments concerning the
    “Management Control Program Review.” He stated that the audit identified the
    lack of updated program management and user documentation as a management
    control weakness. In this regard, he stated that the Program Executive Office,
    Intelligence, Electronic Warfare, and Sensors had exercised judicious
    management controls for essential program cost, schedule, and performance
    parameters and that, in the Army’s opinion, no material weakness is present. For
    the complete text of the Program Executive Officer’s comments, see the
    Management Comments section of this report.

    Audit Response. Without preparing updated program documentation, the
    milestone decision authority did not have essential information, such as key
    performance parameters in the ORD and a C4I Support Plan to document
    interoperability and supportability requirements, to make an informed decision
    concerning the readiness of the SIRFC for low-rate initial production.


Prior Coverage
    During the last 5 years, the General Accounting Office (GAO) and the Inspector
    General of the Department of Defense (IG DoD) issued two reports that address
    the SIRFC. Unrestricted General Accounting Office and Inspector General of the
    Department of Defense reports can be accessed at http://www.gao.gov and
    http://www.dodig.osd.mil/audit/reports, respectively.


                                        21
General Accounting Office
     GAO Report No. GAO-01-448, “Electronic Warfare: The Army Can
     Reduce Its Risks in Developing New Radar Countermeasures System,”
     April 2001

Inspector General of the Department of Defense (IG DoD)
     IG DoD Report No. D-2002-0035, “Protection of Strategic Assets Against
     the Radio Frequency Threat,” January 4, 2002 CLASSIFIED




                                22
Appendix B. Monitoring Contractor Cost and
            Schedule Performance on the
            Technology Insertion Contract
   On July 17, 2000, the program office awarded the technology insertion contract
   DAAB07-00-C-B410 to ITT to redesign, develop and test SIRFC engineering,
   manufacturing and development components. The procuring contracting officer
   did not include the Defense Federal Acquisition Regulation Supplement (DFARS)
   252.242-7005, “Cost/Schedule Status Report,” clause in the SIRFC technology
   insertion contract. DFARS 252.242-7005 requires the contractor to provide cost
   and schedule status reports. The procuring contracting officer stated that the
   DFARS 252.242-7005 clause was not included in the contract because the SIRFC
   program manager stated that there was limited funding for the technology
   insertion contract and that cost and schedule status reports were not a cost-
   effective tool for the technology insertion contract. Further, the procuring
   contracting officer advised that the program office would assess contract cost and
   schedule performance under the initial development contract and that the
   contractor would provide a quarterly report to the program manager on contract
   progress, status, and management after the basic contract was closed. Despite the
   program manager’s assurance that the contract cost and schedule performance
   would be monitored, the program office stopped analyzing the basic contract cost
   and schedule information in September 2001, even though 2 years remained on
   that contract. As of July 2002, several work breakdown structure identification
   categories on the technology insertion contract had cost overruns totaling
   $306,268. The program office could not explain those cost overruns because the
   financial data had not been analyzed in more than a year. Even so, the program
   office maintained that the contract was not experiencing any cost overruns.

   DFARS 252.242-7005 requires contractors to provide, at a minimum, a time-
   phased, budgeted cost of work schedule, the budgeted cost of work performed, the
   actual cost of work performed, budgeted-at-completion data, and estimate-at-
   completion data. By comparing those types of data, cost and schedule variances
   can be calculated and managers can use this information to predict possible
   schedule delays and cost overruns. The contractor did not provide the data for the
   technology insertion contract with the data provided for the basic contract.
   Further, the August 2002 quarterly report did not provide data on work
   breakdown structure to identify cost overruns. Instead, the report identified the
   contract value, the cumulative amount spent to date, and the remaining contract
   balance.

   Although the technology insertion contract was awarded in July 2000, the
   contractor did not begin submitting the quarterly report until August 2002. By
   that time, the contractor had spent 98 percent of the contract funding. Without the
   quarterly reports, the program office did not have sufficient cost information to
   monitor the contractor’s performance.




                                       23
No recommendations are being made concerning the technology insertion
contract because the contract is expected to be completed in July 2003. However,
the contracting officer should include DFARS 252.242-7005 in future SIRFC
contracts, such as the low-rate initial production contract, to assess and manage
the contractor’s cost and schedule performance.




                                   24
Appendix C. Army and U.S. Special Operations
            Command Program Management
   Army Program Management. On July 18, 1994, the Program Executive Office,
   Aviation approved the SIRFC program for entry into the engineering and
   manufacturing development phase of the acquisition process. In October 2001,
   the Army reassigned the milestone decision authority responsibility for the
   program to the Program Executive Office, Intelligence, Electronic Warfare, and
   Sensors. The Product Manager, Radio Frequency Countermeasures continued
   with responsibility for day-to-day management of the program pending an
   agreement between USSOCOM and the Army Acquisition Executive concerning
   which organization would assume program management responsibility after the
   Army withdrew from the SIRFC program in September 2001.

   According to the Product manager, the Army removed funding for the SIRFC
   program because it had to choose between funding the infrared countermeasures
   program or the SIRFC. Both programs are designed to improve the protection of
   rotary-wing and fixed-wing aircraft. Because Army officials considered the
   infrared threat greater than the radio frequency threat, the Army decided to focus
   its available procurement funding on the infrared countermeasures system rather
   than on the SIRFC system.

   Although the Army no longer supports fielding a SIRFC system for each rotary-
   wing and fixed-wing aircraft, Army officials stated that a validated requirement
   remains for the radio frequency countermeasures capability. Accordingly, Army
   plans to revisit the requirement for the SIRFC system in the upcoming program
   objective memorandum for FY 2005 through FY 2010 and develop a revised
   strategy to meet the radio frequency threat.

   Army Special Operations Command Actions. In November 2001, the Army
   Special Operations Command stated in a memorandum to the Army Chief of Staff
   that its number one materiel problem was enhancing the combat survivability of
   Army special operations aircraft. Further, the Command stated that it needed the
   SIRFC system to satisfy that need, and that without immediate funding, the
   SIRFC program would not be executed. As a result, the DoD Comptroller, in
   Program Decision Memorandum II, December 15, 2001, provided USSOCOM
   with $239.7 million in funding for FY 2003 through FY 2007 to procure,
   integrate, and install 97 SIRFC systems on special operations aircraft.

   On March 25, 2002, the Program Executive Officer, Intelligence, Electronic
   Warfare, and Sensors verbally authorized low-rate initial production of the SIRFC
   for special operations aircraft. On May 30, 2002, the Program Executive Officer
   issued a signed acquisition decision memorandum stating that sufficient
   USSOCOM procurement funds were available to support low-rate initial
   production quantities and future production quantities through the Future Years
   Defense Program.




                                       25
            Subsequently, on March 28, 2002, the Technology Applications Program Office,1
            Army Special Operations Command (USSOCOM program office), awarded an
            undefinitized2 low-rate initial production contract to International Telephone and
            Telegraph Industries, Avionics Division to procure and integrate seven SIRFC
            systems for use on the MH-47 Chinook and the MH-60 Blackhawk special
            operations rotary-wing aircraft. The contract had a not-to-exceed value of
            $45 million. As of November 2002, the USSOCOM program office had not
            definitized3 the contract.




1
    The Technology Applications Program Office is the USSOCOM program office responsible for
    management of special operations-peculiar modifications to Army rotary wing aircraft.
2
    A contract in which the terms, specifications, or price are not agreed on before performance begins.
3
    To agree on the contract terms, specifications, and price, which converts the undefinitized contract into a
    definitive contract.



                                                        26
Appendix D. Definition of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program level of review, decision authority, and
   applicable procedures. The acquisition categories consist of I, major Defense
   acquisition programs; IA, major automated information systems; II, major
   systems; and III, all other acquisition programs.

   Acquisition Phase. An acquisition phase represents all the tasks and activities
   needed to bring a program to the next major milestone. Phases provide a logical
   means of progressively translating broadly stated mission needs into well-defined
   system-specific requirements and ultimately into operationally effective, suitable,
   and survivable systems.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is a basis for formulating functional plans and strategies.

   Cost and Schedule Status Report. The cost and schedule status report provides
   contract cost and schedule performance information for program management.

   Critical Program Information. Critical program information includes
   information, technologies, or systems that, if compromised, would degrade
   combat effectiveness, shorten the expected combat-effective life of the system, or
   significantly alter program direction. This includes classified military
   information or unclassified controlled information about such programs,
   technologies, or systems.

   Effectiveness. Effectiveness is the extent to which the goals of the system are
   attained, or the degree to which a system can be elected to achieve a set of specific
   mission requirements.

   Engineering and Manufacturing Development. Engineering and
   manufacturing development is the third phase of the acquisition process where the
   program office and its contractors fully develop, engineer, design, fabricate, test,
   and evaluate the systems and the principal items necessary for support.

   Full-Rate Production. Full-rate production is contracting for economic
   production quantities following stabilization of the system design and validation
   of the production process.

   Information Exchange Requirements. Information exchange requirements
   characterize the information exchanges to be performed by a proposed system and
   identify who exchanges what information with whom, why the information is
   necessary, and how the users will employ that information.



                                         27
Interoperability. Interoperability is the ability of systems, units, or forces to
provide services to, or accept services from, other systems, units, or forces and to
use the services so exchanged to enable them to operate effectively together.
Interoperability is a key performance parameter.

Key Performance Parameters. Key performance parameters are a critical
subset of the performance parameters found in the ORD, and are included in the
performance portion of the acquisition program baseline. Each key performance
parameter has a threshold and objective value. Key performance parameters
represent those capabilities or characteristics so significant that failure to meet the
threshold value of performance can be cause for the concept or system selected to
be reevaluated or the program to be reassessed or terminated.

Low-Rate Initial Production. Low-rate initial production is the minimum
number of systems to provide production representative articles for operational
test and evaluation, to establish an initial production base, and to permit an
orderly increase in the production rate sufficient to lead to a full-rate production
upon successful completion of operational testing.

Milestone. A milestone is the point at which a recommendation is made and
approval sought regarding starting or continuing an acquisition program.

Milestone Decision Authority. The milestone decision authority is the
individual designated in accordance with criteria established by the Under
Secretary of Defense (Acquisition, Technology and Logistics) to approve entry of
an acquisition program into the next phase of the acquisition process.

Objective. The objective is the performance value that is desired by the user and
which the program manager is attempting to obtain. The objective value
represents an operationally meaningful, time critical, and cost-effective increment
above the performance threshold for each program parameter.

Operational Assessment. An operational assessment is an evaluation of
operational effectiveness and operational suitability made by an independent
operational test organization, with user support as required, on other than
production systems. The focus of an operational assessment is on significant
trends noted in development efforts, programmatic voids, risk areas, adequacy of
requirements, and the ability of the program to support adequate operational
testing. An operational assessment may be conducted at any time using
technology demonstrators, prototypes, mock-ups, engineering development
models, or simulations, but will not substitute for the initial operational test and
evaluation necessary to support full-rate production decisions.

Operational Requirements Document (ORD). The ORD is a formatted
statement containing performance and related operational performance parameters
for the proposed concept or system.

Operational Suitability. Suitability is the degree to which a system can be
placed satisfactorily in field use with consideration being given to availability,
compatibility, transportability, interoperability, reliability, wartime usage rates,



                                      28
maintainability, safety, human factors, manpower supportability, logistic
supportability, natural environmental effects, documentation, and training
requirements.

Program Protection Plan. A program protection plan is a comprehensive plan
to safeguard critical program and technology information that is associated with a
defense acquisition program. The level of detail and complexity of the plan will
vary based on the criticality of the program, system, information, and the phase of
the acquisition process being addressed.

Survivability. Survivability is the capability of a system and its crew to avoid or
withstand a man-made hostile environment without suffering an abortive
impairment of its ability to accomplish its designated mission.

System Development and Demonstration Phase. The purpose of the system
development and demonstration phase of the acquisition process is to develop a
system, reduce program risk, ensure operational supportability, design for
producibility, ensure affordability, and demonstrate system integration,
interoperability, and utility.

Test and Evaluation Master Plan. A test and evaluation master plan documents
the overall structure and objectives of the test and evaluation program. It
provides a framework within which to generate detailed test and evaluation plans
and it documents schedule and resource implications associated with the test and
evaluation program. It identifies the necessary developmental test and evaluation,
operational test and evaluation, and live-fire test and evaluation activities. It
relates program schedule, test management strategy and structure, and required
resources to critical operational issues, critical technical parameters, objectives
and thresholds documented in the ORD, evaluation criteria, and milestone
decision points.

Threshold. The threshold is the minimum acceptable value that, in the user’s
judgment, is necessary to satisfy the need. If threshold values are not achieved,
program performance is seriously degraded, and the program may be too costly or
may no longer be timely.




                                    29
Appendix E. Audit Responses to Army Comments
            on the Report
    Our detailed responses to the comments from the Program Executive Officer,
    Intelligence, Electronic Warfare, and Sensors on statements in the draft report
    follow. The complete text of those comments is in the Management Comments
    section of this report.


Army Comments On the Background Section of the Report
  and Audit Response
    Army Comments. The Program Executive Officer provided additional facts and
    clarifications on the background section of the report on funding for the program,
    the full-rate production decision, and the purchase of SIRFC units as Government
    furnished equipment.

           Funding. The Program Executive Officer stated that although the Army
    had withdrawn SIRFC procurement funding for FY 2003 and beyond, the
    FY 2003 President’s Budget showed research, development, and test and
    evaluation funds in the Army SIRFC program line from FY 2004 through
    FY 2008.

            Audit Response. The FY 2003 President’s Budget did contain research,
    development, and test and evaluation funds in the Army SIRFC program line for
    FY 2004 through FY 2008. As stated in the report, the Army, in June 2002, did
    remove $51.4 million of the $61.3 million in research, development, test, and
    evaluation funds planned for FY 2004 and beyond that were included in the
    February 2002, Army Research, Development, Test, and Evaluation Budget Item
    Justification.

             Full-Rate Production Decision. The Program Executive Officer stated
    that at the time of the low-rate initial production decision, in March 2002, the
    SIRFC full-rate production decision was scheduled for the first quarter of
    FY 2004 not FY 2005.

         Audit Response. We revised the report in response to the Army
    comment.

           SIRFC as Government Furnished Equipment. The Program Executive
    Officer stated that plans to purchase SIRFC for the CV-22 program as
    Government furnished equipment on the Army’s SIRFC production contract,
    beginning in FY 2004, were not part of the March 2002 low-rate initial
    production decision, deliberations, and economic discussions as discussed with
    the milestone decision authority.




                                        30
            Response. We did not state in the report that the plans for purchasing
    SIRFC units for the CV-22 program as Government furnished equipment were
    part of the low-rate initial production decision, deliberations, or economic
    considerations discussed with the milestone decision authority in March 2002.
    However, the Program Executive Officer, Intelligence, Electronic Warfare and
    Sensors (the milestone decision authority) did approve the SIRFC Single
    Acquisition Management Plan (SAMP) 00-1, in March 2002, which indicated that
    the CV-22 Program Management Office anticipated purchasing SIRFC units as
    Government furnished equipment through the SIRFC production contract,
    beginning in FY 2004.


Army Comments on Finding A and Audit Response
    Army Comments. The Program Executive Officer stated that during his
    execution of the SIRFC program, there was no indecision or question regarding
    management responsibilities. Action was not taken to realign management
    responsibilities under USSOCOM until after the formal decision to zero all Army
    funding for SIRFC for FY 2004 and beyond, as documented in the Army’s
    FY 2004 President’s Budget Submission to the Office of the Secretary of Defense
    in January 2003. Accordingly, in January 2003, the Army officially transferred
    operational control of the SIRFC program to USSOCOM. He also stated that the
    product manager for SIRFC retained day-to-day management responsibility and
    that management responsibilities and chain of command were clearly defined at
    all times. Further, the Program Executive Officer stated that adequate
    information was presented to him to justify and support a low-rate initial
    production decision for quantities in support of USSOCOM needs, even though
    several documents were not updated before the decision in March 2002.

    Response. Because of the Army’s withdrawal from the SIRFC program in
    September 2001, Army and USSOCOM program management officials were
    unclear as to which organization, Army or USSOCOM, would manage the
    continual acquisition of the SIRFC system. During the audit, the Product
    Manager, Radio Frequency Countermeasures and the Assistant Program Manager,
    Technology Applications Program Office advised that a decision concerning
    program management responsibilities would be made by September 2002. As of
    the date of the draft report, December 16, 2002, the Army and USSOCOM
    acquisition executives still had not made a decision concerning program
    management responsibilities. As a consequence, program management officials
    in the Army and USSOCOM had not taken responsibility for updating program
    documentation as required in DoD guidance.

    Finding A emphasized that the operational requirements document; the command,
    control, communications, computers, and intelligence support plan; the test and
    evaluation master plan; and the program protection plan—key documents that
    were not updated as required in DoD, Chairman of the Joint Chiefs of Staff, and
    USSOCOM instructions and regulations. As a result of the Army’s decision to
    withdraw from the program in September 2001, those key program documents
    needed to be updated to show the program’s revised requirements and acquisition



                                      31
    plans, which the milestone decision authority needs to make an informed decision
    at the full-rate production review scheduled for the SIRFC.


Army Comments on Finding B and Audit Response
    Army Comments. The Program Executive Officer stated that the ORD,
    approved in March 1994, and subsequently updated in August 1995 and
    September 1999, preceded DoD policy that required the implementation of key
    performance parameters. Further, he stated that the SIRFC program office, in
    coordination with the 160th Special Operations Aviation Regiment, proposed
    critical performance objectives and threshold parameters for the low-rate initial
    production phase of the program that were based on the existing ORD, and that
    were subsequently carried forward in the acquisition program baseline approved
    by the milestone decision authority. The SIRFC acquisition program baseline
    included key measurable performance, schedule, cost, and supportability criteria
    linked to operational requirements that in the event of a breach or a potential
    breach would cause the milestone decision authority to reassess the program for
    continuation, modification, or termination. In addition, the SIRFC acquisition
    decision memorandum, May 2002, identified exit criteria that must be satisfied
    before proceeding to an additional low-rate initial production or full-rate
    production decision.

    Response. As discussed in the finding, Chairman of the Joint Chiefs of Staff
    Instruction 3170.01B and its predecessors required that DoD Components include
    key performance parameters that are mission-critical system requirements in the
    ORD. Further, the Memorandum of the Joint Requirements Oversight Council on
    “Policy for Updating Operational Requirements Documents to Incorporate
    Interoperability Key Performance Parameter and Cost,” November 16, 1999,
    requires that DoD Components include an interoperability key performance
    parameter in the ORD of all systems that entered the engineering and
    manufacturing development phase of the acquisition process before April 1, 2000.
    As reported, the latest ORD for the SIRFC program, dated September 1999, did
    not include any key performance parameters. Accordingly, we made the
    recommendation that USSOCOM update the ORD to include key performance
    parameters as required. A good starting point for identifying key performance
    parameters for the SIRFC would be the critical performance objective and
    threshold parameters that the milestone decision authority mentioned and
    approved in the acquisition program baseline in March 2002.


Army Comments on Finding C and Audit Response
    Army Comments. The Program Executive Officer stated that he reached his
    low-rate initial production decision for the SIRFC program through a series of
    multiple reviews with the program manager, USSOCOM, and the Army Test and
    Evaluation Command that focused on reliability; producibility; technical issues,
    status, and fixes; risk mitigation; and overall key programmatic parameters.


                                        32
Based on those reviews, he reached a reasoned decision to support proceeding
with low-rate initial production articles to establish production readiness, to prove
out fixes through aircraft integration testing, and to support a formal material
release to field. Additionally, he stated that the decision was further balanced and
bounded by adding measurable exit criteria in the low-rate initial production
acquisition decision memorandum.

Response. We do not doubt that the Program Executive Officer reached his low-
rate initial production decision through a series of multiple reviews with the
SIRFC program manager, USSOCOM, and the Army Test and Evaluation
Command. However, the Program Executive Officer still made the decision to
allow the SIRFC to enter low-rate initial production when the test results provided
at those reviews were not positive; that is:

   •   the Army Test and Evaluation Command and the Director, Operational
       Test and Evaluation concluded that the system was not sufficiently mature
       to be considered operationally effective, suitable, and survivable;

   •   the Army Test and Evaluation Command recommended that the SIRFC
       program office make 15 system improvements before allowing the SIRFC
       system to enter into low-rate initial production; and

   •   the Army Test and Evaluation Command stated that the differences
       between platforms and their respective SIRFC integrations reduced the
       relevance of the Army Longbow Apache’s test results for the aircraft,
       (such as the USSOCOM MH-47 Chinook rotary-wing aircraft) and
       recommended that those additional platforms be tested with the SIRFC,

As indicated in the report and the System Acquisition Management Plan that was
prepared in support of the low-rate initial production decision in March 2002, the
low-rate initial production decision was needed by March 2002 to meet the
USSOCOM initial operating capability date in FY 2005 for the MH-47 Chinook
rotary-wing aircraft. As of April 2002, no test results were available for the
SIRFC as integrated on the MH-47 Chinook.

We commend the Program Executive Officer for adding measurable exit criteria
in the low-rate initial production acquisition decision memorandum concerning
further low-rate initial production decisions. Because the system was immature
when the first low-rate initial production decision was made, prudent management
practices would dictate that measurable exit criteria be met before management
approves further production decisions.




                                     33
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Officer, Intelligence, Electronic Warfare, and Sensors
      Product Manager, Suite of Integrated Radio Frequency Countermeasures
Auditor General, Department of the Army
Commander, Army Test and Evaluation Command
  Commander, Army Evaluation Center

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Commander, U.S. Special Operations Command
  Commander, Army Special Operations Command
    Program Executive Officer, Maritime and Rotary
       System Acquisition Manager, Army Special Operations Aviation
       Program Manager, Technology Applications Program Office

Non-Defense Federal Organization
Office of Management and Budget




                                          34
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        35
Department of the Army Comments




                    37
Final Report
 Reference




Revised


Revised




               38
39
40
41
U.S. Special Operations Command Comments




                    42
43
Final Report
 Reference




Page 7




Page 10


Page 16




Page 17




               44
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Ms. Mary L. Ugone
Mr. John E. Meling
Ms. Susan J. Lippolis
Mr. Douglas P. Neville
Ms. Barbara S. Wright
Mr. Bradley M. Heller
Mr. Kevin B. Palmer
Ms. Shelley M. Farber
Mr. Anh H. Tran
Ms. Jacqueline N. Pugh
